<html>
<title> - U.S. POLICY TOWARD LEBANON</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                       U.S. POLICY TOWARD LEBANON

=======================================================================

                                 HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 28, 2016

                               __________

                           Serial No. 114-229

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ________
                                 
                                 
                      U.S. GOVERNMENT PUBLISHING OFFICE
99-950 PDF                   WASHINGTON : 2016                      
                                 
________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b0d7c0dff0d3c5c3c4d8d5dcc09ed3dfdd9e">[email&#160;protected]</a>  
                                
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                
                                ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
DARRELL E. ISSA, California          BRIAN HIGGINS, New York
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
RON DeSANTIS, Florida                ALAN GRAYSON, Florida
MARK MEADOWS, North Carolina         GRACE MENG, New York
TED S. YOHO, Florida                 LOIS FRANKEL, Florida
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Gerald M. Feierstein, Principal Deputy Assistant 
  Secretary, Bureau of Near Eastern Affairs, U.S. Department of 
  State..........................................................     7
Andrew Exum, Ph.D., Deputy Assistant Secretary of Defense for 
  Middle East Policy, U.S. Department of Defense.................    19

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Gerald M. Feierstein: Prepared statement...........    10
Andrew Exum, Ph.D.: Prepared statement...........................    22

                                APPENDIX

Hearing notice...................................................    42
Hearing minutes..................................................    43
Written responses from the Honorable Gerald M. Feierstein to 
  questions submitted for the record by the Honorable Ileana Ros-
  Lehtinen, a Representative in Congress from the State of 
  Florida, and chairman, Subcommittee on the Middle East and 
  North Africa...................................................    44
The Honorable Ileana Ros-Lehtinen: Questions submitted for the 
  record to Andrew Exum, Ph.D....................................    46

 
                       U.S. POLICY TOWARD LEBANON

                              ----------                              


                        THURSDAY, APRIL 28, 2016

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 2 p.m., in room 
2138 Rayburn House Office Building, Hon. Ileana Ros-Lehtinen 
(chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. The subcommittee will come to order.
    After recognizing myself and my friend, Ranking Member Ted 
Deutch, for 5 minutes each for our opening statements, I will 
then recognize other members seeking recognition for 1 minute 
each.
    We will then hear from our witnesses. Without objection, 
the witnesses' prepared statements will be made a part of the 
record. Members may have 5 days to insert statements and 
questions for the record subject to the length limitation in 
the rules.
    The chair now recognizes herself for 5 minutes. Two years 
ago this month, this subcommittee held a hearing on security 
challenges and U.S. interests in Lebanon with an administration 
panel represented by State's NEA Bureau and DoD's Middle East 
Policy Bureau.
    I opened that hearing by stating that Lebanon is a country 
that is seemingly perpetually in a state of conflict or on the 
verge of breaking out into a conflict at any moment.
    The same can be said about the country's political 
stability. Lebanon is a country that is seemingly perpetually 
in a state of political crisis or on the verge of breaking out 
in a political crisis at any moment.
    We're now 2 years deeper into the political deadlock that 
has gripped Beirut. The presidency has remained unfilled for 
nearly 2 years while long-overdue legislative elections have 
been pushed even further back to 2017 at the very earliest. The 
more things change the more they stay the same in Lebanon.
    Two years ago, Lebanon was struggling to cope with the 
economic strain of hosting over 1 million Syrian refugees who 
had fled to their neighbor, seeking refuge from the fighting 
between Assad, Hezbollah, ISIS and other terror entities.
    These refugees would be the equivalent of roughly one-
quarter of the Lebanese population. Estimates suggest that over 
3.3 million people in Lebanon are now in need of assistance.
    As has been the case throughout the region in response to 
the Syrian humanitarian crisis, the U.S. has stepped up and to 
date has provided over $1.1 billion in humanitarian assistance 
for Lebanon to help it cope with the strain of its refugee 
influx.
    However, as has also been the case throughout the region in 
response to the Syrian humanitarian crisis, appeals for 
assistance to Lebanon have gone drastically underfunded and 
many of our partners and allies have failed to step up as 
needed.
    The American people are generous. They understand there is 
a real need to support some of these nations struggling to cope 
with this large influx of refugees. But their generosity and 
understanding is not unlimited.
    The administration must do more to press other responsible 
nations to increase their contributions so that we don't bear 
the full brunt of the cost. Two years ago, Lebanon's stability 
was a great concern for the United States.
    Hezbollah was fighting alongside Assad in Syria and the 
Syrian conflict threatened to spill over into Lebanon. Again, 
the more things change the more they stay the same for 
Lebanon's security instability.
    However, now Lebanon has taken on an even greater strategic 
importance for the United States and for the entire region. 
This small country, trapped in a political stalemate for nearly 
2 years now, has an increased significance and is one of the 
battlegrounds in the proxy battle between Saudi Arabia and 
Iran.
    In the absence of any consensus on a way forward in the 
political deadlock, Hezbollah, aided and abetted by the Iranian 
regime, has moved to fill the leadership vacuum and increase 
its presence and influence in Lebanon.
    In the aftermath of the weak and dangerous Iranian nuclear 
deal and even during the negotiations, Iran has increased its 
support to Hezbollah. Indeed, key to Iran's strategic 
objectives in supporting Assad in Syria was maintaining the 
supply route from Damascus to Lebanon, which they have 
successfully managed and reports even suggest that they may 
have accelerated the transfer of weapons including strategic 
weapons systems to Hezbollah through Syria.
    More troubling still, it is apparent that Hezbollah has 
managed to gain sufficient influence in Lebanon to hinder its 
relationship with its Arab neighbors.
    In fact, in February of this year the Lebanese justice 
minister resigned, explicitly citing Hezbollah's undue 
influence and the harm it was causing to Lebanon's 
relationships.
    This same month--that same month, Saudi Arabia led the Gulf 
Corporation Council nations to designate Hezbollah as a 
terrorist organization with the Arab League shortly following 
suit.
    The Saudis, taking aim at Hezbollah and Iran again, also 
announced they were halting $3 billion in military assistance 
to Lebanon. No doubt the Saudis recognize that it is not just 
in the political sphere that Iran and Hezbollah have gained 
undue influence.
    Hezbollah has increased its presence within and partnership 
with the Lebanese Armed Forces. This synergy between the 
Lebanese Armed Forces and Hezbollah should really call into 
question then the administration's continued support for the 
LAF and the President's budget request that doubles the foreign 
military financing assistance we provide to Lebanon.
    It is also worrisome that the commander of the Lebanese 
Armed Forces is now currently in Moscow and will meet with 
Russian military officials to discuss coordination on anti-
terror operations.
    A senior Russian official was quoted as saying that Moscow 
and Beirut are true partners in combating terrorism worldwide. 
This is on the heels of the Czech Republic recently releasing, 
after refusing an extradition request by the U.S., two members 
of Hezbollah wanted in America on charges of planning to murder 
U.S. Government officials and drugs and arms trafficking.
    At least one of these individuals is known to have had 
close ties to a notorious Russian arms dealer and is Russia's 
link to Hezbollah.
    So I'm interested in hearing the administration's 
assessment of the relationship between Iran and Lebanon and, 
more specifically, Hezbollah and the LAF as well as Lebanon's 
relations with its Arab neighbors, the nexus between Russia, 
Hezbollah and the LAF as well as the prospects for Lebanon's 
future stability.
    I'll also like to hear how the administration's policy 
toward Lebanon fits in a larger picture with the fight against 
ISIS and the conflict in Syria, the Syrian humanitarian crisis 
and how we plan on ensuring that the spillover from Lebanon 
does not threaten our friend and ally, the democratic Jewish 
state of Israel.
    And with that, I'm pleased to yield to the ranking member, 
my friend, Ted Deutch.
    Mr. Deutch. Thank you, Madam Chairman. Thanks for calling 
this hearing. Thanks to our witnesses for appearing today. 
Welcome back, Ambassador Feierstein.
    We are delighted to see you again before you retire and I 
am sure there is no place you'd rather be to celebrate your 
birthday than appearing before our committee. So happy birthday 
to you.
    And Dr. Exum, it's a pleasure to welcome you to the 
committee as well. You're welcome to celebrate your birthdays 
here. It's a standing offer we make.
    We tend to look at Lebanon in pieces in the context of 
other regional actors and conflicts. But today is going to give 
us the opportunity to look at the range of challenges facing 
Lebanon and how U.S. policy can best address those challenges.
    Lebanon has been locked in a political stalemate that has 
all but frozen the country's ability to effectively govern its 
diverse population.
    The Parliament has been unable to agree on a consensus 
President since 2014, struggled to face down its number-one 
internal threat, Hezbollah, while outside pressures from the 
Syrian conflict continue to mount.
    Divisions within Lebanese society have long made it 
susceptible to outside influence. The ouster of the Syrian 
military 11 years ago yesterday unfortunately did not free the 
country from those looking to exploit it.
    Iran has only sought to strengthen Hezbollah's grip on 
Lebanon. Moving weapons and money to the group to carry out its 
attacks on Israel and other targets worldwide, Iran turned 
Hezbollah into its own proxy terrorist organization.
    This culminated in the deployment of somewhere between 
6,000 and 8,000 Hezbollah fighters into Syria to fight 
alongside Assad's troops as Iran is desperate to save its 
Syrian lifeline to Hezbollah.
    Conflict in Syria has devastated Lebanon's economy. Nearly 
a quarter of the population are now refugees. This has only 
intensified the economic turmoil already plaguing Lebanon and 
drawn deeper divisions between Sunnis and Shi'ites.
    Hezbollah's power grip on Lebanon towns in the south 
remains tight as the group provides everything from protection 
to paychecks to basic social services. Hezbollah in effect 
functions as a state within a state.
    And despite the government's desire to remain neutral in 
the Syrian conflict, it has unfortunately been unable to avoid 
attacks from Hezbollah's continued involvement on the ground. 
Bombings in Beirut in November 2015 by alleged ISIS recruiters 
unfortunately killed 43.
    U.S. policy toward Lebanon has long sought to counter 
Hezbollah by focusing on building up the capabilities of the 
Lebanese Armed Forces to act as the sole legitimate guarantor 
of security in the country.
    But despite gains made in counter terrorism and border 
control, gaps exist in the LAF's ability to control the 
security of its country. Particularly concerning is the LAF's 
ability to control the flow of weapons in and out of its 
territory.
    In recent years, the U.S. has consistently increased 
assistance and cooperation to the LAF to counter both the 
threats emanating from Syria and Hezbollah. Dr. Exum, I look to 
you today to provide us with an updated assessment of LAF's 
capabilities.
    Further, how significant will the effect be of the 
withdrawal of $4 billion in aid from Saudi Arabia to the LAF 
and can we count on other like-minded partners who have an 
interest in seeing Lebanon succeed fill that gap.
    Of great concern to many of us in Congress is the 
enforcement of U.N. Security Council Resolution 1701, which, by 
all accounts, has been a dismal failure. With no one to enforce 
the resolution, Hezbollah has rebuilt its arsenal of rockets 
and now possesses over 100,000 capable of reaching every corner 
of Israel.
    Fear over the transfer of advanced weaponry from Assad's 
stockpiles to Hezbollah has prompted numerous strikes on 
weapons convoys by Israel and with the prospect of additional 
weapons coming from Iran and Hezbollah, it's now more important 
than ever that Israel's qualitative military edge be 
strengthened.
    And as talks over the new memorandum of understanding 
continue with Israel, every consideration must be given to the 
strength of Hezbollah's arsenal. As Lebanon grapples with its 
tenuous security situation, its state institutions, 
unfortunately, grow weaker.
    Deputy Secretary Blinken said on his most recent visit to 
Lebanon unless and until a President is chosen, he said, the 
erosion of Lebanon's political institutions will only deepen.
    To that end, the United States must continue to support 
Lebanon's legitimate state institutions and work with elements 
in the government to help prevent an economic crisis.
    I am pleased to see the Lebanese banking sector working 
with the United States to implement the provisions of the 
Hezbollah International Financing Prevention Act, which will 
help wall off Lebanese banks from Hezbollah's illicit 
activities.
    If we want to see success and stability for the people of 
Lebanon we must focus attention on those communities hosting an 
extraordinary number of refugees. With no U.N.-run refugee 
camps in the country, many Syrians have sought shelter in 
parking garages and abandoned buildings.
    The international community must provide Lebanon with the 
resources needed to expand access to education and health care 
for the hundreds of thousands of Syrian children there, and as 
I have mentioned many times in this subcommittee, I applaud the 
humanitarian efforts of the United States and I implore the 
department, Ambassador Feierstein, to remind our allies and 
friends around the world that they must meet this crisis head 
on. Contributing to the humanitarian crisis also contributes to 
security.
    Madam Chairman, like all of us, the people of Lebanon 
deserve to live in peace and security free from the grip of 
terrorism. Lebanon is a tinderbox and U.S. policy must focus on 
continuing to prevent it from sparking.
    Again, I thank the witnesses for appearing today and look 
forward to a productive discussion.
    Ms. Ros-Lehtinen. Thank you so much, Congressman Deutch.
    And now I would like to recognize members for their opening 
statements and we will begin with Mr. Chabot of Ohio.
    Mr. Chabot. Thank you, Madam Chair, and as far as I'm 
concerned Lebanon is one of the key countries--one of the most 
important countries in the Middle East.
    Regional powers have a long history of fighting for 
influence in Lebanon and unfortunately it continues to be the 
subject of coercive forces outside its borders. I'm deeply 
concerned that the tensions between Iran and Saudi Arabia may 
further exacerbate the looming instability in Lebanon.
    This is particularly troubling considering the Lebanese 
economy is facing serious strains caused by, among other 
things, hosting over 1 million Syrian refugees which now make 
up about a quarter of the population in Lebanon.
    And while Lebanon has made some positive democratic shifts 
over the years, the fact remains there are still armed nonstate 
groups in Lebanon and this is reason enough to pay special 
attention to the situation there.
    A long-term breakdown in leadership and governance in 
Lebanon would leave it susceptible to the same chaos that we've 
seen elsewhere in the region and that absolutely must not 
happen.
    Finally, not only is Hezbollah hostile toward our 
traditional ally, Israel, but we are now hearing some argue 
that Hezbollah's political participation in the Lebanese 
Government is resulting in even greater strain of tensions 
between Lebanon and the other Arab nations.
    And further breakdowns in diplomatic relations in the 
region could have a significant negative impact. So we 
appreciate the witnesses and look forward to hearing them today 
and I yield back.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chabot.
    Mr. Cicilline of Rhode Island.
    Mr. Cicilline. Thank you, Chairman Ros-Lehtinen and Ranking 
Member Deutch, for calling this hearing on U.S. policy toward 
Lebanon and thank you to our witnesses.
    I look forward to hearing from you about the geostrategic 
importance of Lebanon, particularly in the context of the 
ongoing Syrian conflict and its related refugee crisis, the 
undue influence of Hezbollah and the threat of ISIL and other 
terrorist groups in the region and beyond.
    Given sustained U.S. interests and support to Lebanon over 
the years, our strategic objective of supporting a viable, 
independent, sovereign and democratic Lebanon that is at peace 
with its neighbors is more important than ever.
    It's imperative that we continue to support these goals and 
I want to ensure that U.S. resources are applied in the best 
and most effective way possible.
    We cannot afford to let Lebanon slide into further disarray 
and Lebanon must help itself by providing good governance and 
security for its people.
    I look forward to the witnesses' testimony today and to 
working with the administration and my colleagues to further 
strengthen our important relationship with Lebanon.
    And I thank you, Madam Chair, and yield back.
    Ms. Ros-Lehtinen. Thank you, Mr. Cicilline.
    And Mr. Meadows of North Carolina.
    Mr. Meadows. Thank you, Madam Chairman. Thank you for your 
vision and your undying, unyielding effort to make sure that we 
address this issue.
    Ms. Ros-Lehtinen. The gentleman can have 2 more minutes.
    Mr. Meadows. I want to thank the witnesses for being here. 
For me, this is one that is not only a complex question but 
certainly one that we need to show resolve and make sure that 
those that are our friends, and by that I mean the Lebanese 
people, that they understand clearly what we stand for and what 
we won't stand for, and by addressing Hezbollah in a meaningful 
way through the tools that have been given the Department of 
Treasury and other areas.
    We need to make sure that we do that. I think there are 
times that we are ambiguous about that, and having a 
communications director who is part Lebanese, having someone 
who cuts my hair every 4 weeks who is full Lebanese, I can 
assure you I'm going to follow up on it.
    And with that, I'll yield back, Madam Chairman.
    Ms. Ros-Lehtinen. Thank you so much. More information than 
we cared for. And I'll turn to another sharing kind of guy, Mr. 
Connolly of Virginia.
    Mr. Connolly. Madam Chair, if you could just tell the 
time--I just want to remind you I gave you chocolate.
    Ms. Ros-Lehtinen. You did, and dark chocolate--the best.
    Mr. Connolly. And secondly, I didn't realize Dr. Exum gives 
haircuts. At any rate, thank you, Madam Chairman, and, you 
know, I first went to Lebanon with my friend, who's in the 
room, and it was a really revealing kind of trip that Graham 
exposed to me and I just got to say we can talk about Hezbollah 
as if it somehow was created sui generis within Lebanon--who 
knows how or why.
    But the dysfunction within Lebanon is what created 
Hezbollah, created a receptive climate for Hezbollah. And, you 
know, I'm a local government kind of guy.
    When you can't even pick up the trash for 8 months it leads 
to mass riots. It leads to mass disaffection with the 
government and I think that, plus the government legislative 
paralysis, the inability to elect a President and so forth, I 
think has persuaded most Lebanese that it's terminally 
dysfunctional as a country. And that ought to concern us as 
well as the fact that we got 1.1 million refugees, the 
equivalent of 25 percent of the population. I think that would 
be, like, 70 million here in the United States, comparable.
    So those two things are destabilizing in the extreme and I 
think we cannot afford to ignore them.
    Thank you.
    Ms. Ros-Lehtinen. Thank you, Mr. Connolly.
    And seeing no further requests for time, I am pleased to 
introduce our excellent panel of experts.
    First, it's our pleasure to welcome back Ambassador Gerald 
Feierstein, who is the principal deputy assistant secretary for 
the Bureau of Near Eastern Affairs.
    Previously, he served as our Ambassador to Yemen--yikes--
from 2010 to 2013, has served in several different postings 
throughout the world including deputy chief of mission in 
Islamabad--another yikes--and deputy council general in 
Jerusalem--yeah. Thank you for your service. We look forward to 
your testimony, and as Mr. Deutch had pointed out, for those 
members who were not here, this is two special banner days for 
Ambassador Feierstein.
    Number one, it's his birthday and, as Ted pointed out, he 
can think of no funner way for him to celebrate his birthday 
than to appear before a congressional panel, and number two, it 
is his last testimony in his position because he's going to 
retire in 4 weeks. So we wish you nothing but the best, 
Ambassador.
    And next, we welcome for the first time Dr. Andrew Exum, 
deputy assistant secretary of defense for Middle East policy. 
He is the principal advisor to the secretary of defense and 
under secretary of defense for policy on international security 
strategy and policy for the Middle East.
    In addition to his current service with the Defense 
Department, Dr. Exum has served our nation with distinction in 
both Afghanistan and Iraq as an officer in the U.S. Army. We 
thank you for your service there as well, and what is that 
lapel pin of service?
    Mr. Exum. This would be the Combat Scroll of the 1st Ranger 
Battalion.
    Ms. Ros-Lehtinen. Not bad. All right.
    Thank you. We welcome both of you and Mr. Ambassador, we 
will begin with you, sir.

  STATEMENT OF THE HONORABLE GERALD M. FEIERSTEIN, PRINCIPAL 
  DEPUTY ASSISTANT SECRETARY, BUREAU OF NEAR EASTERN AFFAIRS, 
                    U.S. DEPARTMENT OF STATE

    Ambassador Feierstein. Thank you very much, Madam Chairman 
and Ranking Member Deutch, and before I say anything else let 
me just say, if this is indeed the last time that I come up 
here, at least in this capacity, I want to thank all of you--
all of the members of the committee for the many opportunities 
that we've had, as well as with your staff, to come up and 
discuss these issues, and to say that I've always found my 
experiences here to be rewarding and enjoyable even.
    So thank you, and thank you for inviting me to discuss U.S. 
policy toward Lebanon today. I would like to request that my 
full opening statement----
    Ms. Ros-Lehtinen. Without objection.
    Ambassador Feierstein [continuing]. Be submitted for the 
record.
    Promoting a Lebanon that is independent, sovereign, stable, 
prosperous and religiously diverse is crucial to advancing a 
range of U.S. interests in the Middle East.
    Lebanon today faces three critical challenges. First are 
the spillover effects of the ongoing Syrian conflict, second 
are the activities of Hezbollah and third is the political 
crisis that has nearly paralyzed government decision making for 
nearly 2 years.
    We are grateful to the Congress for passing the Hezbollah 
International Financing Prevention Act signed into law last 
December. This law provides us with critical new tools to 
dismantle Hezbollah's global financial network.
    Our strategy for helping Lebanon address these three 
challenges is simple. To ensure that the Lebanese security 
forces have the tools that they need to prevent ISIL from 
destabilizing the country while helping build legitimate state 
institutions in order to deny Hezbollah what it seeks to 
avoid--a strong central government capable of providing 
services for the entire country.
    The conflict in Syria has severely tested Lebanon's 
resilience. Our assistance to refugees from Syria and to the 
Lebanese communities that have graciously hosted them for 
nearly 5 years has helped alleviate the economic burden on the 
Lebanese people.
    Lebanon faces a real threat from ISIL and the Nusra Front. 
This is why we support Lebanon's legitimate state security 
institutions and particularly the Lebanese Armed Forces and see 
that as a down payment on a long-term investment in regional 
stability.
    Just today an LAF raid in the town of Arsal in Lebanon 
resulted in the death of a key ISIL operative. My Pentagon 
colleague, Dr. Exum, will discuss our relationship with 
Lebanon's security institutions in greater depth.
    Our cooperation is not limited to counter terrorism. 
Combating trafficking in persons is one of our highest 
priorities. Lebanon has made important gains in targeting human 
traffickers, the slave traders of today.
    In late March, the internal security forces raided a human 
trafficking ring, arresting 16 traffickers and rescuing 75 
victims.
    On the second challenge that threatens Lebanon and one I 
know that this committee tracks closely, Hezbollah. When 
Hezbollah first intervened in the Syrian civil war to prop up 
the Assad regime, the group showed its true colors to anyone 
who still doubted that Hezbollah put its own interests and 
those of its foreign backers ahead of those of the Lebanese 
people. When Hezbollah conducts terrorist activities abroad or 
drags Lebanon into the war in neighboring Syria, it is ordinary 
Lebanese people who are paying the price.
    The U.S. Government is actively implementing the Hezbollah 
International Financing Prevention Act. The Department of 
Treasury's Office of Foreign Asset Control issued new HIFPA 
regulations on April 15th. We will use our full authority under 
HIFPA to target foreign financial institutions that knowingly 
facilitate significant transactions or engage in money 
laundering activities or other activities related to Hezbollah. 
When we have evidence we will build a case and we will take 
action. Before the passage of HIFPA we were already targeting 
the nodes of Hezbollah's international financing by designating 
over 100 Hezbollah-affiliated individuals and entities.
    The third major challenge Lebanon faces is restoring 
effective government. We commend Prime Minister Tammam Salam 
for his courage and perseverance in addressing Lebanon's most 
pressing challenges. But he cannot do the job alone.
    Next month will mark 2 years the Lebanese people have been 
without a President. Lebanon's leaders, particularly those who 
are blocking a quorum from convening in Parliament, must put 
the interests of the Lebanese people first by electing a 
President and restoring a fully functioning government.
    Madam Chairman, in these and many other ways we are 
contributing to the stability, independence and security of 
Lebanon, which is as much a U.S. interest as it is a Lebanese 
one.
    Thank you for the opportunity to testify before the 
subcommittee. I welcome the opportunity to answer your 
questions.
    [The prepared statement of Ambassador Feierstein follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
       
                              ----------                              

    Ms. Ros-Lehtinen. Thank you, Mr. Ambassador.
    Dr. Exum.

 STATEMENT OF ANDREW EXUM, PH.D, DEPUTY ASSISTANT SECRETARY OF 
   DEFENSE FOR MIDDLE EAST POLICY, U.S. DEPARTMENT OF DEFENSE

    Mr. Exum. Madam Chairman, Ranking Member Deutch and 
distinguished members of the subcommittee, thank you for 
inviting me to discuss U.S. policy toward Lebanon.
    I have taken note of the questions that the various members 
asked in their opening statements and I've also made a note for 
my staff about the dark chocolate. I will be better prepared 
for the next subcommittee appearance.
    Ambassador Feierstein highlighted the array of interlocking 
challenges that Lebanon confronts and gave an overview of our 
comprehensive strategy in Lebanon. My own experience in Lebanon 
is personal as well as professional. I lived in Lebanon for 2 
years while attending the American University of Beirut, of 
which I'm a proud graduate, and I returned to Lebanon for 
another 8 months in 2008 to conduct research for my doctoral 
dissertation.
    If you had told me 5 years ago that Lebanon would be 
flooded with over 1 million refugees from a brutal sectarian 
civil war in Syria but would somehow remain an oasis of 
relative calm in the Middle East, I would not have believed 
you.
    I would have explained probably with some academic 
condescension that I was an expert on Lebanon and that what you 
were describing to me was impossible given Lebanon's own 
difficult history of sectarian conflict.
    Yet, I would have been wrong. So, so much for all that grad 
school. I would have undervalued the drivers of stability in 
Lebanon, choosing to focus on the more obvious drivers of 
instability, and I would have, most importantly, underestimated 
the role the Lebanese Armed Forces has played in keeping 
Lebanon cohesive and at peace with its neighbors and itself.
    I'll focus my comments on our military cooperation with the 
LAF, which is the core pillar of our policy in Lebanon and 
something that we can all, from our taxpayers to our special 
operations soldiers to our policy makers, be proud of.
    Amidst all the challenges that Lebanon confronts, the LAF 
remains the country's only highly functioning national 
institution. Our support has enabled the LAF to beat back the 
advances of the Islamic State and other extremist groups such 
as the Nusra Front, although not without some high degree of 
sacrifice from our Lebanese partners.
    Strengthening the LAF also advances a range of U.S. 
interests in the Middle East and that includes not only 
countering the spread of ISIL and other violent extremists but 
also stemming the influence of Iran and Hezbollah in the 
region.
    Since 2006, the United States has provided Lebanon more 
than $1.2 billion in military assistance that aims to build a 
LAF that, one, is capable of maintaining internal stability and 
security, two, is capable of securing Lebanon's borders and 
preventing ISIL and other foreign extremists from destabilizing 
the country, and three, is the preeminent military force in 
Lebanon, undermining the claims of Hezbollah and other militias 
from maintaining their arms as well as the claim of Hezbollah 
to be acting in the defense of Lebanon's interests.
    In October, the President announced that the United States 
would intensify its security assistance to Lebanon as part of 
the campaign to counter ISIL.
    To execute the President's guidance, Lebanon will likely 
continue to be one of the Department of Defense's priority 
countries for our counter terrorism partnership funding in 
Fiscal Year 2016 to continue to bolster the LAF capability to 
counter ISIL and other extremists.
    This week, I had the opportunity to meet with a delegation 
of senior general officers from the LAF during the DoD's annual 
U.S.-Lebanon Joint Staff talks.
    Some of these general officers I've known for years, dating 
back to when I served as the desk officer for Lebanon at DoD 
and they are among our closest partners in the region.
    But don't take my word for it. Ask any one of the hundreds 
of special operators who have served in Lebanon over the past 5 
years. They will tell you the Lebanese are among the best 
partners we have in the region to work with. They train hard 
and they fight hard. We couldn't ask for more in a partner.
    The LAF has taken a variety of bold measures to maintain 
stability in Lebanon and counter the destabilizing effects of 
the Syrian conflict. The LAF has increased its operational 
tempo and reinforced Lebanon's borders with additional border 
and special operations forces.
    These forces have been highly active, engaging militants on 
a weekly basis by launching artillery and air strikes, by 
executing clearing operations in extremist-associated 
neighborhoods and conducting raids and arrests.
    High-profile arrests by the LAF and other security services 
include the apprehension of radical Salafist cleric Ahmed al-
Asir, ISIL operative Omar Miqati and the 1996 Khobar Towers 
bombing suspect Ahmed al-Mughassil.
    The effectiveness of U.S. assistance and the LAF's 
willingness to exercise its role as the sole legitimate defense 
force in Lebanon was further underscored in March when the LAF 
executed the daring operation in Ras Baalbek that killed over a 
dozen ISIL fighters and destroyed ISIL vehicles, a command post 
and a safe house.
    And as Ambassador Feierstein noted just today, an ISIL 
operative was killed in Arsal, the emir Abou Fouz was killed by 
Lebanese special operations forces just today.
    In the face of these rising challenges the LAF has 
demonstrated considerable unity, fortitude and professionalism. 
The LAF has organized itself effectively to maintain a 
tremendously high operational tempo for many of its units and 
has demonstrated the ability to make appropriate requests for 
and use of the equipment we've given it as well as unity and 
professionalism in numerous operations.
    Although the LAF has prevented ISIL from destabilizing the 
country to date, the stakes for LAF's failure are extremely 
high.
    If the LAF falters in its fight against extremists, 
Hezbollah or even long-demilitarized Christian militias could 
decide to seek or take direct military actions to protect their 
communities, resulting in an outbreak of sectarian fighting 
that could undermine the stability of Lebanon.
    A LAF defeat, combined with a Hezbollah victory over 
extremists forces, risks strengthening Hezbollah and Iran 
inside of Lebanon and therefore undermining U.S. policy efforts 
to bolster Lebanese state institutions' ability to exert 
sovereign authority throughout Lebanon.
    As the United States faces a strategic environment in the 
Middle East that is the most unstable it's been in 40 years, 
our positive relationship with and continued support to Lebanon 
and the LAF are more important than ever.
    The LAF remains a critical pillar of Lebanon's stability 
and its commitment to curtailing sectarian fighting and 
terrorism has been a significant factor in preventing Lebanon 
from descending into greater violence and instability.
    Madam Chairman and Representative Deutch, I thank you and 
other distinguished members of the subcommittee for calling 
this hearing and drawing attention to Lebanon's security 
challenges and the U.S. security interests in supporting 
Lebanon during this critical time.
    With that, I'm open to your questions.
    [The prepared statement of Mr. Exum follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Ms. Ros-Lehtinen. Job well done. Thank you so much. In the 
interest of time, because we will have votes shortly, I would 
like to give my time to Congressman Chabot of Ohio.
    Mr. Chabot. Thank you very much, Madam Chair.
    Earlier this week, we heard that Hassan Nasrallah and a 
handful of senior members of Hezbollah met with both Iran's 
Vice President and Iran's Ambassador to Lebanon.
    How concerned is the administration over Iran's influence 
in Lebanon? I have a very important part of my district that 
has the same name--it's Lebanon. We love you both. So how 
concerned is the administration about Iranian influence and 
what efforts are being made to counter Iran's influence there?
    Ambassador Feierstein. Thank you, Mr. Chabot.
    I would say, of course, we're extremely concerned for a 
variety of reasons. The most specific, currently, is the extent 
to which Iran is encouraging and pressing Hezbollah to 
interfere in the election of a new President and effectively to 
paralyze the Government of Lebanon.
    And so this has been an issue and a concern for us for, in 
fact, many years that Iran has supported Hezbollah to the 
detriment, in our view, of the overall security and stability 
of the country.
    In order to address it, of course, we have been extremely, 
heavily engaged in a variety of activities that we have laid 
out. So everything from trying to help counter Iranian 
influence and ensure that there is an election and ensure that 
the Government of Lebanon can function and can perform its 
duties and provide services to its people.
    The support that we're providing to the LAF and the 
internal security forces in order to allow the security forces 
to maintain control over Lebanon's borders as well as the 
sovereignty of its territory--all of these are factors in 
pushing back against Iranian exploitation of the 
vulnerabilities in that society.
    And, of course, the other part is what we're trying to do 
in order to build a broad international coalition of support 
for all of the activities that we are talking about, whether 
it's refugees, humanitarian relief or these other political and 
economic areas that we're working in. All of them will limit 
Iran's influence in Lebanon.
    Mr. Chabot. Thank you.
    Mr. Ambassador, according to the Hezbollah International 
Financing Prevention Act of 2015, the President is due to 
provide Congress with a number of reports including reports on 
countries that support Hezbollah, an assessment of whether a 
country's government is taking adequate measures to disrupt 
Hezbollah's networks and activities within that country, and 
methods that Hezbollah utilizes to raise or transfer funds. As 
of today, I don't believe we've received those reports. Can you 
please update us on the status of those reports and when we can 
expect to receive them?
    Ambassador Feierstein. Yes, Mr. Chabot. I'm pleased to say 
that the State Department did submit the required reports 
several weeks ago. The other reports are in the hands of ODNI 
and I'll be happy to go back and seek from them some further 
information about when they might be prepared to submit those 
reports.
    Mr. Chabot. Thank you. Dr. Exum, let me go to you. We 
always--as I know you're well aware--I've met with the Lebanese 
Armed Forces generals over the years, and they're always making 
obvious requests for funding and the support they need and I'm 
inclined to support them. That being said, I, and I think a lot 
of my colleagues in Congress, are always concerned that some of 
those dollars don't end up in the hands of Hezbollah in some 
manner. Would you, once again, and I know you mentioned before 
the good things the LAF has been doing--could you make us 
more--tell me why I can be satisfied that that money isn't 
going where it shouldn't be going?
    Mr. Exum. Thank you for the opportunity to answer that 
question. I feel very proud to announce that the Lebanese Armed 
Forces--as you know when we provide weapons, especially when 
they're sensitive weapons, like night vision goggles and things 
like that, we have end use monitoring requirements. And the 
Lebanese Armed Forces have consistently had the best end use 
monitoring reporting of any military that we work with. Meaning 
that the equipment that we provide to the Lebanese Armed 
Forces, we can account for it at any given time. We have a 
pretty large OMC in the Embassy in the Lebanon as well as a 
forward presence there. So we feel pretty confident--we feel 
highly confident--given their end use monitoring rate that we 
can account for the equipment, Congressman.
    Mr. Chabot. Thank you very much.
    Ms. Ros-Lehtinen. Thank you very much. Mr. Deutch.
    Mr. Deutch. Thanks, Madam Chairman. I'd like to talk about 
the end of the Syrian conflict in light of the news reports 
just today, it's impossible right now to imagine. But, we spend 
a lot of time talking about what role, if any, Assad will play, 
but I'd like you both to focus on what results might lead to a 
weakening of Hezbollah that would in turn potentially lead to a 
strengthening of the government in Lebanon.
    Ambassador Feierstein. Thank you Mr. Deutch. And of course 
all of this is highly speculative because we can't really see 
the shape of an outcome that would bring peace to Syria. But if 
we were able to achieve that in a way that provided for a 
political transition that brought in all of the elements of 
Syrian society that gave the Sunnis and the other minority 
groups inside of Syria full voice, that we believe, in and of 
itself, would weaken Hezbollah and certainly weaken the 
linkages between Iran, Syria, Hezbollah, and Lebanon. And so 
the kind of discussions--negotiations--that are going on now to 
fulfill the commitments that were made at Geneva I to allow for 
political transition would be in fact the end game, the end 
state that we believe achieve our broader regional objectives.
    Mr. Deutch. Dr. Exum do you have thoughts on that?
    Mr. Exum. Congressman I think I'd approach this a couple of 
different ways. First off, you raised the interesting question 
about how this conflict in Syria has affected Hezbollah and in 
a different format and perhaps in a closed hearing of this 
subcommittee we could talk about the effect that conflict in 
Syria has had on Hezbollah for the positive and negative ways. 
I think what this conflict has done in the positive way, it has 
allowed the Lebanese Armed Forces to prove itself to the 
population and has certainly allowed the Lebanese Armed Forces 
to prove that it can defend Lebanon and that there is less of a 
need for these other armed groups. If you remember, Hezbollah 
was allowed to keep its arms under the Taif accords that ended 
the Lebanese Civil War. But that was based on, you know, a 
threat against Israel.
    I think that the Lebanese Armed Forces has been able to 
show that it's been quite effective in terms of fighting these 
nonstate actors and it has given us more time to build up these 
forces.
    I think the question I have, Congressman, and I'll speak 
quite bluntly, is what happens when Hezbollah comes home--how 
do they see their role in Lebanon. Do they want to turn their 
attentions toward the instability of--or toward conflict with 
Israel?
    My biggest fear, for all that we've accomplished in 
Lebanon, is that Hezbollah drags Lebanon and Israel into 
another war that's not in the interests of the Lebanese people, 
the Israeli people, or certainly the United States either.
    Mr. Deutch. And just continuing that thought, what are the 
practical implications of the LAF without Saudi funding and is 
it going to be made up elsewhere? What does it mean?
    Mr. Exum. And thanks for raising that because I was just in 
the Gulf with Secretary Carter last week. He met with all the 
Gulf's defense ministers.
    I also had the opportunity to meet bilaterally with 
Mohammad bin Salman and in Saudi Arabia Mohammed bin Zayed. I 
think there are two levels that this affects us. There's the 
pragmatic kind of immediate acquisitions level. This means that 
the Lebanese Armed Forces likely won't be able to acquire some 
of the weapons systems that we feel are necessary for them to 
me more effective against groups like Daesh and Nusra.
    These include close air support platforms as well as kind 
of protected mobility, so advanced, you know, armored personnel 
carriers. That's the practical aspect.
    The political aspect, and this is something that Secretary 
Carter--well, this is something that our department has 
certainly--I don't want to speak for him, but certainly our 
department has advanced is that, you know, in places like 
Baghdad and places like Beirut we need our Gulf partners to be 
on the ground with us. We need them to be engaged because when 
they're not engaged it cedes the ground to Iran.
    So I think I worry that with the withdrawal--the apparent 
withdrawal of Saudi Arabia from Lebanon--I hope this is just a 
monetary thing because, quite frankly, we need our Gulf 
partners to be there. Otherwise, I fear that it only increases 
Iranian influence in Beirut just as the absence of a Gulf 
engagement in Baghdad increases Iranian influence there.
    Mr. Deutch. Great. Thank you very much, Dr. Exum and 
Ambassador Feierstein. I just want to also add my best wishes 
for a peaceful and enjoyable retirement and thank you for your 
service.
    Ms. Ros-Lehtinen. Not in Yemen, not in Islamabad but 
Jerusalem maybe.
    Mr. Weber.
    Mr. Weber. Thank you, Madam Chair.
    And Ambassador, let me add my word of congratulations too 
but I must caution you that they say that retirement is not all 
that it's cracked up to be. The hours are long and the pay is 
low. So congratulations to you.
    Dr. Exum, you said that the withdrawal of other--in regard 
to Congressman Deutch's question about the withdrawal of the 
Saudis--you said that we needed our other Gulf partners. Such 
as who?
    Mr. Exum. Such as the United Arab Emirates, in particular. 
On the one hand, we applaud the GCC countries for their strong 
stand against Hezbollah. It's aligned with ours. The 
designation of Hezbollah as a foreign terrorist organization--
that's directly in line with us.
    However, as we've just laid out, our strategy for Lebanon--
our policy--is based around strengthening Lebanese national 
institutions and we need the Saudis, we need the Emiratis and 
the Kuwaitis to be with us in those efforts.
    Mr. Weber. Is there any indication that the Emiratis--well, 
the Saudis, obviously--or the Kuwaitis and others, are they 
going to withdraw their support?
    Ambassador Feierstein. Mr. Weber, if I may, first of all, 
let me just say that we understand and appreciate the concerns 
that the Saudis had that led them to make this decision, that 
the Government of Lebanon, unlike nearly every other country in 
the international community including our own, was unwilling to 
condemn a purposeless attack on Saudi diplomatic facilities in 
Iran. So we don't want to suggest that we disagree or that we 
don't appreciate the rationale behind the Saudi position.
    Having said that, we agree entirely with the view--the 
perception that Dr. Exum outlined--and that is that we all need 
to be working together in order to support Lebanese 
institutions, including more specifically the LAF, in order to 
stabilize the country and provide security.
    When Secretary Kerry was in Hafr al Batin a few weeks ago, 
he did have conversations also with the Saudis and urged them 
to limit the extent of their actions against the Government of 
Lebanon and to look for ways to move back into a position where 
they would be more solidly supportive and be more consistent 
with the approach that we've taken and I believe that we've 
heard from the Saudi leadership that they are prepared to do 
that.
    Mr. Weber. Well, there's three really interesting things 
here--well, more than three but three that I'll ask about. In 
our notes here, in one of the comments, it says most of the 
Syrian refugees are housed actually in Lebanese neighborhoods. 
How do they do that?
    Ambassador Feierstein. This is actually true throughout the 
region. It's true in Jordan and in Turkey as well and that is 
that most of the Syrians, when they came across, were able to 
find apartments.
    Many of them, of course, have relatives who live in Lebanon 
and they were able to simply move in with their relatives. Many 
of the refugees when they first came across had savings and 
other kinds of financial ability.
    Mr. Weber. That makes sense. And then Dr. Exum, you said, 
you know, what was it, 3 years ago maybe--I forget your 
timing--that if someone had said this would be happening in 
Lebanon you'd puff up your academic chest, as it were, and say 
no way.
    And our notes say that there are drivers of stability. What 
are those drivers of stability, in your opinion?
    Mr. Exum. So Congressman, I think, like I said, first and 
foremost the Lebanese Armed Forces. I'm very proud----
    Mr. Weber. But let me--let me give you my third question 
then because it ties in with this. And Doctor, pardon the 
interruption but----
    Mr. Exum. No, no.
    Mr. Weber [continuing]. One of our notes says that we had a 
witness in HFAC in March 2016, I think it was, who actually 
said that there are so many Hezbollah now in LAF that LAF has 
become an extension of the Hezbollah movement. I don't know if 
you're aware of that. Would you agree with that?
    Mr. Exum. I would not agree with that assessment. I think 
that the relationship between the Lebanese Armed Forces and 
Hezbollah is one that, obviously, we carefully study.
    I believe Madam Chairman described it as a partnership or 
synergy. I think we'd describe it as deconfliction.
    If there was ever a partnership or even cooperation between 
the two organizations that would be highly problematic, of 
course, for this department, especially since we have U.S. 
personnel who are working with the Lebanese Armed Forces.
    Mr. Weber. You said that the Lebanese Armed Forces are the 
number-one stabilizing influence in Lebanon.
    Mr. Exum. I think that would be the first among several 
drivers of stability. Others, Congressman, is bear in mind that 
for better or for worse much of Lebanon's political class lived 
through and were leaders during the Lebanese civil war.
    So they remember what the abyss looks like and I think at 
times when we've seen sectarian tensions almost spiral out of 
control there's been a conscious step back and I think that has 
to do with, unfortunately, the difficult memories of Lebanon's 
own civil war.
    Mr. Weber. I got you. Thank you, Madam Chair. I yield back.
    Ms. Ros-Lehtinen. Thank you very much.
    Mr. Cicilline.
    Mr. Cicilline. Thank you very much.
    Thank you again for your testimony. I'm particularly 
interested to know whether the Arab League's recent designation 
of Hezbollah as a terrorist group is impacting Hezbollah's 
ability to operate in the region and as a follow-on, 
considering Hezbollah's exacerbation of the humanitarian crisis 
and the significant loss of life, is there any sense that you 
have that there's growing support within the European community 
to fully designate Hezbollah as a terrorist organization?
    Ambassador Feierstein. Mr. Cicilline, in regard to your 
first question, we do believe that the designation by the GCC 
and by the Arab League of Hezbollah as a terrorist organization 
is an important step in the right direction and we are moving 
to try to help build practical steps on the basis of that 
designation to increase the cooperation that we have.
    So for example, Department of State, Treasury and Justice 
recently held a law enforcement coordination group meeting in 
Bahrain to try to increase the way that we can work together to 
limit Hezbollah's capacity to operate in the region.
    We think that this is an important step and we'll continue 
to move forward on that. As for the Europeans, we believe that 
the level of cooperation that we're getting from Europe is very 
good, that in fact, the designation by the EU of the military 
wing of Hezbollah in 2013 was an important step in the right 
direction.
    We are working with Europol and with others, again, in very 
close coordination to try to address the Hezbollah threat as it 
applies globally.
    Mr. Cicilline. And do the Gulf countries have the 
capabilities to enforce this designation and the willingness?
    Ambassador Feierstein. We believe that GCC capabilities 
have grown over time. We are working with them as part of the 
President's Camp David summit with GCC leaders last year. We 
agreed that we are going to increase our cooperation and 
coordination with them on issues like terror finance, 
specifically applying to Hezbollah, and to look at other areas 
where we could increase our cooperation.
    So the trend line is positive. Their capabilities are 
growing and we'll continue to work with them very closely to 
try to increase that.
    Mr. Cicilline. Thank you, Ambassador. I too wish you well 
on your retirement and thank you for your extraordinary service 
to our country.
    Dr. Exum, you mentioned the apparent withdrawal of Saudi 
Arabia from its military assistance to Lebanon. So I'm, first, 
interested to know why you used the word apparent and whether 
or not it's more than it appears to us.
    And also, the United States, obviously the U.K., the 
European Union and France have reaffirmed and in many cases 
increased their defense cooperation with Lebanon.
    At the same time, Iran has also offered to fill in the 
funding gap and my question is really how has the Lebanese 
Government responded to this--what do you think the long-term 
effect of that is and if you could just discuss kind of the 
apparent withdrawal.
    Mr. Exum. Right. Congressman, first off, the donation 
itself was always somewhat ambiguous. It had been announced 
quite some time ago and maybe Mr. Ambassador----
    Ambassador Feierstein. We're talking about the Saudis, not 
the Iranians.
    Mr. Exum. Exactly, the Saudi--right.
    Ambassador Feierstein. You know, of course we have been 
working very closely with the Saudis and they were cooperating 
with us on the purchase of some U.S. articles, also with the 
French on the purchase of French articles.
    That financing has been withdrawn. But we certainly do hope 
that the Saudis over time will restore much of that and will be 
able to continue.
    Mr. Exum. While we were in the discussions about that for 
that donation--it was ambiguous as far as where we stood in 
terms of that money actually landing in a bank account where it 
could be used.
    So now that the announcement has been made we hope to 
continue to engage with our Saudi partners to reinvest in the 
Lebanese Armed Forces.
    With respect to the--to any potential Iranian investment--I 
would defer to my State Department colleagues. But I will say 
that our British colleagues have been quite good partners, 
especially with Lebanon's border security program and we've 
partnered quite closely in terms of the border and regiments 
that we have trained and in terms of the checkpoints that we 
have created along Lebanon's border with Syria, and in terms of 
individual fighting positions that we've constructed. So the 
British have been tremendous partners for us in Lebanon.
    Ambassador Feierstein. Right. And as for the Iranian offer, 
I think that the Government of Lebanon saw it for exactly what 
it was, which was a propaganda play and they said that they had 
no interest.
    Mr. Cicilline. Great. Thank you so much. I yield back, 
Madam Chairman.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Cicilline.
    Dr. Yoho.
    Mr. Yoho. Thank you, Madam Chairman.
    Gentlemen, I appreciate you being here. What is the current 
assessment of rockets and missiles in Lebanon, Dr. Exum?
    Mr. Exum. Are you referring to Hezbollah's arsenal?
    Mr. Yoho. Yes.
    Mr. Exum. I think I could say that in this hearing that 
they have reconstituted at the very least their rocket arsenal 
from 2006. I think to go into greater detail I'd be happy to 
arrange for a briefing from one of our intelligence----
    Mr. Yoho. Yes, I'd like to get that because I have here in 
my notes that it says the Israelis' current assessment is 
150,000 missiles and rockets. I would be curious to see where 
we are from there.
    And then we've also heard with the Iran nuclear deal that 
Iran has said they were going to help retrofit these with smart 
bomb technology.
    Do we have any indication that that's going on?
    Mr. Exum. Again, I will refer those----
    Mr. Yoho. Okay.
    Mr. Exum [continuing]. The specific questions to our 
intelligence community. Let me just say, though, Congressman, 
that as you know we have partnered with the Israelis I think 
over the past 5 years. The Department of Defense has spent an 
average of $500 million over the past 5 years alone--an average 
annually--of $500 million to partner with the Israelis on their 
missile defense technology and we've had several key successes 
both with the development of the Arrow 2 and Arrow 3 systems, 
the David sling system--these are for more long-range ballistic 
missiles--but most importantly, the Iron Dome program that the 
United States has co-developed with Israel has saved countless 
Israeli lives. This has all been since 2006.
    Mr. Yoho. No, and that's great.
    Mr. Exum. So we take this threat very seriously, 
Congressman.
    Mr. Yoho. Well, and let me ask both of you. With the--
again, trying to assess the aftermath of the Iran nuclear 
deal--do you see Iran inserting and influencing that region 
more, getting more hegemony in that area and taking, you know, 
just more leadership in that area? Are we seeing that more 
since the Iran nuclear deal or since some of the sanctions have 
been released or money been released?
    Ambassador Feierstein. Mr. Yoho, this is, of course, 
something that we watch very carefully and was a subject of 
most of the conversation that the President had with the GCC 
leadership when he was in Riyadh just 2 weeks ago.
    We do believe that in the period since the JCPOA was signed 
that the Government of Iran has tried to expand its influence, 
its presence in the region--that they are going to continue to 
try to at least portray an image of an Iran that is becoming 
more and more active, more and more powerful in the region.
    Some of this is, of course, overstated and is designed 
really to create a certain image of Iran of perhaps more than 
is real.
    But there are also elements of it that are well worth 
watching and therefore, the strategy that we are pursuing, 
which is to build up the capabilities of our allies and 
partners in the region--the GCC, Government of Israel--to 
confront these Iranian efforts. Also as Dr. Exum said, whether 
you're looking at Baghdad or at Beirut or at Sana'a to increase 
the ability of those societies to resist Iranian expansion, to 
resist Iranian exploitation of vulnerabilities, to work with 
our Gulf allies to do that.
    Mr. Yoho. And that's--the important thing that we want to 
do is make sure that the unintended consequences doesn't 
embolden Iran that has more of a destabilizing effect, if 
that's possible, in that region.
    Ambassador Feierstein. Absolutely.
    Mr. Yoho. That we want to make sure that if they are having 
an influence it's a positive influence, which time will tell on 
that.
    As far as Russia's involvement in Syria, along the Israeli 
border with Syria, are we seeing any influence with Russia's 
presence there as far as a stabilizing in that area or have you 
assessed anything? Is it a positive effect or negative or no 
change at all?
    Ambassador Feierstein. In terms of the Israeli-Syrian 
border?
    Mr. Yoho. Yes.
    Ambassador Feierstein. Well, I think that if you look at 
the evidence, there's a dialogue going on between the Israelis 
and the Russians in order to try to deconflict and, of course, 
the Government of Israel has said that they had an 
understanding with the Russians that they would continue to 
carry out their defensive operations inside of Syria in order 
to ensure that the Iranians or others couldn't exploit the 
political chaos in that region. So that part has been positive. 
But overall, the Russian presence has not contributed to 
stability on the border.
    Mr. Yoho. Okay. I'm out of time and I thank you----
    Ms. Ros-Lehtinen. Thank you so much, Dr. Yoho.
    Mr. Yoho [continuing]. For your time.
    Ms. Ros-Lehtinen. Thank you. Mr. Connolly.
    Mr. Connolly. Thank you, Madam Chairman, and Mr. 
Feierstein, I want to be real clear. You hold an appointment in 
this administration and I want to make very clear what you did 
or did not say to Mr. Yoho on the record.
    Is there any evidence that because of JCPOA, or related to 
it in some fashion, Iran has changed or expanded its activity 
with respect to Hezbollah in Lebanon specifically and in other 
places in the region because of the free-up of funds?
    Ambassador Feierstein. No, sir. There is no direct evidence 
linking the two.
    Mr. Connolly. Right. Right. And in fact, the evidence is, 
despite all of this PR about the funds, almost all of those 
funds have been used, in fact, for domestic investment because 
they ran down their reserves and they've got some serious 
reinvestment they need to make in order to pump up the oil 
production as well. Is that a fair statement?
    Ambassador Feierstein. This is absolutely the assessment 
that we made.
    Mr. Connolly. Thank you. Just want to clear that up for the 
record.
    You know, when my friend, Graham Beneman, who's here 
today--by the way, he worked for the Senate Foreign Relations 
Committee, Madam Chairman.
    Ms. Ros-Lehtinen. All the good people came.
    Mr. Connolly. You know, we're everywhere. We're everywhere, 
still.
    Ms. Ros-Lehtinen. Congressman Deutch, do you remember that?
    Mr. Connolly. But we went to Lebanon well over 30 years ago 
and, you know, there were problems about Lebanese stability 
then and it only got worse in the '80s when we were there, 
right, because the civil war had ended--we thought that was the 
worst.
    But certainly U.S. suffered terrible losses and, by the 
way, Democrats didn't exploit those problems of Ronald Reagan. 
So the Embassy got blown up not once but twice. The MAU--the 
Marine amphibious unit--at the Beirut Airport was blown up by 
terrorists and we lost 240 young men--240--241, thank you.
    Graham and I lost a friend, Bill McIntyre, in the first 
bombing of the Embassy. He worked for USAID at that time. And 
we had a series of assassinations of Lebanese leaders, most of 
it attributed to Syrian activity and because Syria wanted to 
keep control over Lebanon and certainly had, as I recall, 
troops in the Beqaa.
    But now when we look at Lebanon, and this is the question I 
want to ask you, are we looking now really at a fundamentally 
failed state and can we ever find the formula to sort of put 
Humpty Dumpty back together again and, I mean, and not 
necessarily with the status quo ante but with something more 
democratic, more reflective of the demographics--the actual 
demographics--and a state that's going to function and work and 
provide services and security for its citizens and to make sure 
it has secure borders with its neighbors like Israel. Go for 
it.
    Ambassador Feierstein. Mr. Connolly, we would absolutely 
not suggest that Lebanon is a failed state or anything close to 
being a failed state.
    As Dr. Exum said, there are drivers of stability there, 
that there is a resilience that has been demonstrated over 
these past years that in many ways is quite remarkable.
    The fact that Lebanon has been able to absorb over a third 
of its population in the form of refugees without creating huge 
social or political disintegration or dysfunction is a 
remarkable achievement on their part.
    The performance of the LAF and the internal security forces 
in holding the security together and addressing some fairly 
serious challenges both externally from spillover from the 
Syrian conflict into the Beqaa Valley but also in terms of 
preventing the rise of extremism from within Syria and the 
performance within Lebanon, the performance of the ISF and the 
OAF, for example, in Tripoli in maintaining stability there 
even though there were extremist forces operating.
    So all of these things are very positive. There are 
challenges. There are serious challenges on the political 
front, the need to resolve this 2-year vacancy in the 
presidency and to allow the government to function--the 
challenge of Hezbollah----
    Mr. Connolly. Close to as bad as leaving a Supreme Court 
seat vacant for 9 months.
    Ambassador Feierstein. Yes, sir. All of these things are 
challenges. But I don't think that we have ever been at a point 
where we were not confident that the Lebanese would be able to 
pull this together and create a strong and stable society.
    Mr. Exum. No, I would just concur with that. I think that 
we have seen examples where we have been able build up 
effective national institutions and I would concur. I think, 
you know, again, like I said at the beginning, if I were to go 
back 5 years and think that Lebanon would somehow be relatively 
stable I would not have believed it.
    But I think Lebanon has proven a lot of us wrong the past 
several years, given the resiliency of not only its people but 
also the institutions it does have either at the national or 
communal level.
    Ms. Ros-Lehtinen. Thank you, Mr. Connolly.
    Mr. Higgins.
    Mr. Higgins. Thank you very much, Madam Chair. Just a 
couple of questions. We have a vote.
    So just the Lebanese Armed Forces, for both of you, is--
what percentage of their force is made up of the Shi'a 
population?
    Mr. Exum. Yes, I have the precise demographics here. It's, 
roughly, it's about a third Christian, a third Sunni Muslim and 
about a third Shi'a Muslim with about 6 percent Druze 
population in there. I can go into greater detail if you'd 
like, sir.
    Mr. Higgins. Does the Lebanese Armed Forces--are they 
viewed as being more effective than Hezbollah as a fighting 
force?
    Mr. Exum. They're not, I would say. I would think that the 
Lebanese Armed Forces are still a work in progress and it's 
largely uneven.
    We've done some great work with the Lebanese special 
operations forces. I think everybody, to include the Lebanese 
Armed Forces and our own military, believes that we've got a 
lot more work to do with the so-called conventional units 
within the Lebanese Armed Forces--the intervention brigades, 
the border regiment forces--and I think there is still a 
perception, which we are working to counter quite actively, 
that Hezbollah is a more effective actor on the battlefield.
    Mr. Higgins. Externally, with the Saudi pull back of $4 
billion to support the Lebanese Armed Forces, is there a 
concern that--internally in the country--that the Lebanese 
Armed Forces loses its street cred, if you will, among the 
Shi'a population as the institution that is in place to protect 
all of Lebanon?
    Mr. Exum. So and here, Congressman, I've taken off my DoD 
hat. I've got my analyst hat on now and I've never really 
worried about the credibility of the Lebanese Armed Forces 
within the Shi'a population or within the Christian population.
    It's in large part the Sunni population that I've worried 
about in part because so many of the operations that the 
Lebanese Armed Forces carry out are against Sunni extremists, 
against--and often they operate in largely Sunni communities 
like Arsal, like Tripoli in the north, like Sidon in the south. 
And I worry that there's a perception among some in Lebanon's 
Sunni community, which I believe has been increasingly 
radicalized, in places, due to the conflict in Syria and 
broader waves of sectarianism that have swept the region over 
the past 10 years, I worry about not their credibility but the 
way they are perceived within that specific community.
    I will say, overall, the Lebanese Armed Forces have never 
been more popular and never been more respected within Lebanon 
overall and that's highly encouraging, Congressman.
    Ms. Ros-Lehtinen. Thank you.
    Mr. Higgins. I'm sorry. Okay.
    Ms. Ros-Lehtinen. And Mr. Higgins, we really do have 3 
minutes to get to our vote. But thank you so much and I'm 
sorry.
    Mr. Higgins. It's okay.
    Ms. Ros-Lehtinen. And with that, our subcommittee is 
adjourned.
    Thank you, gentlemen. Thank you to the audience.
    [Whereupon, at 4:36 p.m., the hearing was adjourned.]

                                     
                                    

                            A P P E N D I X

                              ----------                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
